<html>
<title> - RECOMMENDATIONS OF THE NATIONAL COMMITTEE ON LEVEE SAFETY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                         RECOMMENDATIONS OF THE 
                         NATIONAL COMMITTEE ON 
                              LEVEE SAFETY 

=======================================================================

                                (111-34)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                                   ____

                         U.S. GOVERNMENT PRINTING OFFICE 

49-953 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
STEVE KAGEN, Wisconsin               HENRY E. BROWN, Jr., South 
DONNA F. EDWARDS, Maryland           Carolina
SOLOMON P. ORTIZ, Texas              TODD RUSSELL PLATTS, Pennsylvania
PHIL HARE, Illinois                  BILL SHUSTER, Pennsylvania
DINA TITUS, Nevada                   MARIO DIAZ-BALART, Florida
HARRY TEAGUE, New Mexico             CONNIE MACK, Florida
ELEANOR HOLMES NORTON, District of   LYNN A WESTMORELAND, Georgia
Columbia                             CANDICE S. MILLER, Michigan
MICHAEL E. CAPUANO, Massachusetts    ROBERT E. LATTA, Ohio
GRACE F. NAPOLITANO, California      ANH ``JOSEPH'' CAO, Louisiana
MAZIE K. HIRONO, Hawaii              PETE OLSON, Texas
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
PARKER GRIFFITH, Alabama
BOB FILNER, California
CORRINE BROWN, Florida
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Conrad, David, Senior Water Resources Specialist, National 
  Wildlife Federation............................................   117
Fitzgerald, Steve, Chief Engineer, Harris County Flood Control 
  District, Testifying on Behalf of the National Association of 
  Flood and Stormwater Management Agencies.......................   117
Halpin, Eric, Special Assistant for Dam and Levee Safety, U.S. 
  Army Corps of Engineers........................................   117
Haney, Andy, Public Works Director, City of Ottawa, Kansas.......   117
Harder, Jr., Leslie F., Senior Water Resources Technical Advisor, 
  Hdr, Inc., Testifying on Behalf of the American Council of 
  Engineering Companies..........................................   117
Larson, Larry, Executive Director, Association of State 
  Floodplain Managers............................................   117

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................   149
Mitchell, Hon. Harry E., of Arizona..............................   151

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Conrad, David....................................................   152
Fitzgerald, Steve................................................   180
Halpin, Eric.....................................................   187
Haney, Andy......................................................   196
Harder, Jr., Leslie F............................................   202
Larson, Larry....................................................   221

                       SUBMISSIONS FOR THE RECORD

Johnson, Hon. Eddie Bernice, a Representative in Congress from 
  the State of Texas, the Testimony of the American Society of 
  Civil Engineers and the Association of State Dam Safety 
  Officials......................................................     3
Johnson, Hon. Eddie Bernice, a Representative in Congress from 
  the State of Texas, "Recommendations for a National Levee 
  Safety Program: A Report to Congress from the National 
  Committee on Levee Safety".....................................    13

                        ADDITIONS TO THE RECORD

American Rivers, Rebecca W. Wodder, President, letter to 
  Chairwoman Johnson and Ranking Member Boozman..................   236
Karpowicz, Charles E., P.E., Water Resources Engineer, written 
  statement......................................................   238
<GRAPHIC NOT AVAILABLE IN TIFF FORMAT>




  HEARING ON RECOMMENDATIONS OF THE NATIONAL COMMITTEE ON LEVEE SAFETY

                              ----------                              


                         Tuesday, May 19, 2009

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:00 p.m. in 
room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairman of the Subcommittee] presiding.
    Ms. Johnson. I would like to welcome everyone here this 
afternoon for this hearing, which will address the 
recommendations of the National Committee on Levee Safety as 
contained in its report to Congress.
    I would like to thank all of our witnesses for joining us 
and we look forward to your testimony.
    In 2007, Congress enacted the Water Resources Development 
Act, overriding a veto by then-President George Bush. With this 
legislation, Congress expressed its overwhelming desire to 
upgrade and maintain our Nation's crumbling water 
infrastructure. An important piece of the Water Resources 
Development Act is Title IX, the National Levee Safety Act of 
2007. Title IX established the National Committee on Levee 
Safety and authorized the committee to develop recommendations 
and an implementation plan for a national levee safety program.
    Today's hearing is only the first step in what needs to be 
a national conversation on how we address flood risk, not only 
in terms of expectations in our current flood control 
situation, but also in how we plan for and communicate flood 
risk in the future. Today's hearing on the recommendations of 
the committee is a good place to begin the conversation, 
listening to recommendations of flood control experts and 
examining any challenges to their implementation.
    Hurricane Katrina, the costliest and most deadly hurricane 
in our Nation's history, served as a wake-up call on the state 
of our Nation's levees, but no in time to prevent over $100 
billion in property damages and a devastating loss of life.
    More recently, last summer, breaching of levees and 
flooding throughout the Midwest resulted in billions more 
dollars in property damages and loss of several dozen lives. 
These events reinforce the dire need to address the state of 
our Nation's levees and floodplains and to create a safety 
program that will protect the public and hopefully reduce the 
risk of future losses in a more sustainable manner.
    The United States first began Federal construction of its 
levee systems after the great floods in the 1920s and 1930s 
along the Mississippi and Ohio Rivers. These devastating floods 
spurred Congress to pass the Flood Control Acts of 1928 and 
1936 to fund the construction of thousands of miles of robust 
levees. Many of these systems protected against extreme 
flooding in the range of 500 to 1,000-year floods.
    However, subsequent national policies have encouraged levee 
construction in the last 30 years to protect only against 100-
year flood protection. The reality is that during the life of a 
typical 30-year mortgage, there is a 26 percent chance that 
flooding will occur.
    Increased development and urbanization have also caused 
greater risk to our flood control systems. In many areas, 
levees that were built decades ago to protect farmland are now 
relied upon to protect the millions of people who have moved 
into the area. Development in floodplains also increases urban 
runoff and decreases the flood-carrying capacity of surrounding 
waterways, placing existing systems under greater stress.
    Moreover, the effects of global climate change are likely 
to cause the sea level to rise and increase the size and 
intensity of storms which further jeopardize our current levels 
of flood protection.
    In the face of these concerns, it is necessary to reexamine 
how we protect our communities from flooding and implement more 
realistic and sustainable safety measures. By latest count, 
there are roughly 2,000 levee systems operated by the Corps, 
which amounts to approximately 14,000 miles of levee 
infrastructure.
    However, the quantity, location and condition of non-
Federal levees in the United States is currently unknown, 
although it is estimated to account for an additional 100,000 
miles of levee infrastructure. Establishing an inventory of 
these levees will be a crucial first step to creating a 
successful national levee safety plan.
    Beyond that, we must implement and encourage measures that 
will address the increased risk to our levee systems and better 
protect our communities against the devastating effects of 
flooding. We must create clear national standards, implement 
greater risk management from all levels of government, and 
institute adequate inspections and oversight so that we can 
ensure that the damage and destruction of Hurricane Katrina 
never occurs again.
    I look forward to hearing from our witnesses about the 
development and implementation of a national levee safety plan 
that will live up to these goals.
    And before I ask Mr. Boozman for his remarks, I would like 
to ask unanimous consent that the testimony of American Society 
of Civil Engineers and the Association of State Dam Safety 
Officials be included as a part of the record.
    [The information follows:]
    
<GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    In addition, I would also like to enter into the record a 
copy of the report to Congress on the recommendations for a 
national levee safety program.
    Without objection, so ordered.
    [The information follows:]

<GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    
    Ms. Johnson. I now recognize Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    Today, the Subcommittee begins its review of Title IX of 
Water Resources Development Act of 2007, which established the 
National Committee on Levee Safety and charged it with 
developing recommendations for a national levee safety program 
to more adequately address risk in flood-prone areas.
    The National Committee on Levee Safety was challenged with 
coming up with recommendations within 180 days of enactment of 
a secondary piece of legislation clarifying the provision in 
the Water Resources Development Act. While this was a steep 
hill to climb, the committee delivered on its promise.
    Sadly, the Office of Management and Budget took longer to 
review the draft report than it took the National Committee on 
Levee Safety to actually write the report. Even with this 
review, OMB made no changes to the report.
    Congress asked for an unvarnished opinion and analysis from 
levee safety experts nationwide. While OMB at times may perform 
necessary functions of political analysis, analysis of the 
levee risk in a safety report required by law and intended for 
Congress is neither warranted nor welcome. This type of 
meddlesome behavior by OMB and its inattention to 
infrastructure has left the United States vulnerable to 
catastrophic flooding.
    Recent events have been all but ignored, and catastrophic 
loss of life could very well happen again. Uncertainty in 
location, lack of oversight, lack of technical standards, and 
an inability to effectively communicate risk has left America 
in a vulnerable state. The national inventory of dams shows 
that 45 percent of all Federal dams are at least 50 years old, 
and that 80 percent of them are at least 30 years old.
    We know less about the status and capabilities of our 
levees. There has never been a national inventory of levees. 
Little is known about the current condition of both Federal and 
non-Federal levees, including whether these levees were 
designed to meet current conditions or whether they have been 
properly maintained by the non-Federal interest.
    Over the decades, levees have been built by different 
entities at different times and to different standards. They 
have been linked together to provide a protective system, but 
with such a mixture of conditions the true level of protection 
may be in doubt.
    Over time, development has taken place behind some of these 
levees so that today may be much more of a risk in terms of 
lives and economic resources than in the past. The Army Corps 
of Engineers has authority over more than 2,000 levee systems, 
comprising more than 14,000 miles of levee infrastructure. 
However, more than 100,000 miles of levees makes this 
nationwide.
    More people are moving to coastal and riverine areas where 
the risk is at its greatest. Because of Hurricanes Katrina and 
Rita, the Federal Government is augmenting State and local 
recovery efforts with billions of dollars of aid to the Gulf 
Coast. We do not know where the next hurricane or flood will 
hit, but we do know that many of our major cities, including 
parts of Washington, D.C., have a greater probability of 
flooding than did New Orleans.
    For example, the city of Sacramento, California has almost 
twice as many people as New Orleans, yet it has less flood 
protection than any other major city in America. Cities like 
Houston, St. Louis, and Miami also are at risk. We cannot treat 
citizens of these cities differently unless we have a policy 
reason that we can explain and justify to our constituents.
    There is so much that we do not know about the levees in 
America that we cannot be sure how safe our cities and towns 
really are. The National Committee on Levee Safety did an 
excellent job on its report. While it had only a little time to 
scratch the surface on the issue of levee safety, the report 
has provided a great deal of education and enlightenment to the 
Congress and the Nation.
    The report reminds Congress and the Nation that just 
because people reside behind a levee or other flood damage 
reduction projects, they are not guaranteed safety, only that 
their risk of catastrophic loss has been reduced. An important 
reminder is how we define the 100-year flood event, that a 
resident has a 26 percent chance of a flood during the life of 
a 30-year mortgage.
    In the 1920s and 1930s, levees and flood structures were 
constructed to defend against the 500-year or 1,000-year flood 
event. In 1968, the National Flood Insurance Program 
established the 100-year flood designation as its risk 
standard. This may have the unintended consequences of 
encouraging the construction of flood damage reduction projects 
to this arbitrary and relatively low threshold. Those living 
behind 100-year structures are not required to purchase 
national flood insurance. In fact, less than six million people 
hold flood insurance policies in more than 20,000 communities 
nationwide.
    Well-designed and well-constructed projects continue to be 
economically justified because they reduce risk to life and 
property. However, new projects may also attract development 
that otherwise would not be there. Effective flood risk 
management involves multiple layers of defense and governance, 
a shared responsibility. Levees by themselves are not an 
effective solution. Raising structures, reestablishing 
floodplains, providing insurance and building reservoirs are 
all potential ways of reducing flood risk.
    We cannot reduce risk over a few years. This crisis has 
been building for generations and it will take a combination of 
long-term and short-term measures to address the levee safety 
crisis. The American Society of Civil Engineers issued their 
report card on the Nation's infrastructure a few weeks ago, 
giving levees the lowest grade of all infrastructure types. 
They point out that more than 85 percent of the levees are 
locally owned and maintained, and their liability is uncertain.
    Because we do not fully know the scope of the problem, we 
do not know what it is going to cost to fix it. However, a 
rough estimate by ASCE is that it may cost more than $100 
billion to repair and rehabilitate the Nation's levees.
    The Nation has recently been forced to face the fact that 
some banks and some businesses are just too big to fail. Well, 
I would submit to you that the potential risk posed by unsafe 
levees is a risk too big to ignore. We must begin to get an 
understanding of the scope of the problem and begin to discuss 
strategies to reduce flood risk in America.
    I would like to thank the National Committee on Levee 
Safety for providing to Congress a reasoned and thoughtful 
approach to initiate efforts on a national levee safety 
program. While we may not agree on all of the finer points of 
their recommendations, I want to congratulate the members of 
the National Committee on Levee Safety for meeting the 
challenge of producing an enlightening report.
    Thank you, Chairwoman Johnson, for holding this hearing. I 
look forward to the testimony of the witnesses.
    Ms. Johnson. Thank you very much, Mr. Boozman.
    We have three votes. The first one is 15 minutes. It is 
already down to five minutes. And the other ones are five 
minutes apart. We will not be interrupted any more today for 
votes that are scheduled. So we are going to recess and come 
back and go straight to our witnesses.
    [Recess.]
    Ms. Johnson. The Committee will come to order.
    And we are going to begin with our witnesses. We have today 
Mr. Eric Halpin, Special Assistant for Dam and Levee Safety, 
U.S. Army Corps of Engineers, Washington; Mr. Larry Larson, 
Executive Director of the Association of State Floodplain 
Managers, Madison, Wisconsin; Mr. Steve Fitzgerald, Chief 
Engineer, Harris County Flood Control District, Houston, and he 
is also testifying on behalf of the National Association of 
Flood and Stormwater Management Agencies; and Mr. David Conrad, 
Senior Water Resources Specialist, National Wildlife 
Federation, Washington; Dr. Leslie Harder, Senior Water 
Resources Technical Advisor, HDR, Incorporated, Folsom, 
California, and testifying on behalf of the American Council of 
Engineering Companies; and Mr. Andy Haney, Public Works 
Director, City of Ottawa, Kansas, testifying on behalf of the 
American Public Works Association.
    I want to express my appreciation for your being here. We 
hope to have a very informational session. That is one of the 
reasons we put everybody on the same panel. We want to get the 
benefit of your knowledge as completely as we can.
    You will be called upon in the order that I introduced you. 
So now I will ask Mr. Eric Halpin to begin his testimony.
    Thank you.

 TESTIMONY OF ERIC HALPIN, SPECIAL ASSISTANT FOR DAM AND LEVEE 
 SAFETY, U.S. ARMY CORPS OF ENGINEERS; LARRY LARSON, EXECUTIVE 
   DIRECTOR, ASSOCIATION OF STATE FLOODPLAIN MANAGERS; STEVE 
    FITZGERALD, CHIEF ENGINEER, HARRIS COUNTY FLOOD CONTROL 
 DISTRICT, TESTIFYING ON BEHALF OF THE NATIONAL ASSOCIATION OF 
FLOOD AND STORMWATER MANAGEMENT AGENCIES; DAVID CONRAD, SENIOR 
   WATER RESOURCES SPECIALIST, NATIONAL WILDLIFE FEDERATION; 
    LESLIE F. HARDER, JR., SENIOR WATER RESOURCES TECHNICAL 
   ADVISOR, HDR, INC., TESTIFYING ON BEHALF OF THE AMERICAN 
COUNCIL OF ENGINEERING COMPANIES; AND ANDY HANEY, PUBLIC WORKS 
                DIRECTOR, CITY OF OTTAWA, KANSAS

    Mr. Halpin. Madam Chair and Members of the Subcommittee, I 
am Eric C. Halpin, Special Assistant for Dam and Levee Safety 
with the U.S. Army Corps of Engineers and a registered 
professional engineer. I am pleased to be here today and have 
an opportunity to talk to you about my role as a Vice Chair of 
the National Committee on Levee Safety and our report to 
Congress on a national levee safety program.
    Although I am here today discuss the committee's report, it 
must be clear that the committee's recommendations do not 
represent an Administration position. In a letter dated May 7, 
2009, the Army noted that an official policy review by the 
Administration would use the findings in the committee's report 
to inform its final review. The Army also noted that the 
Administration expects to complete its review this fall.
    Our Nation has experienced an increase in risk to people 
and infrastructure as a result of aging infrastructure. The 
history of the United States is full of lessons, both successes 
and failures of levee systems and their maintenance. The 
devastating floods of the 1920s and 1930s brought a long period 
of unregulated and poorly constructed levees into focus, 
resulting in the construction of more robust levee systems for 
the decades of the 1930s through the 1960s.
    So the report from the National Committee on Levee Safety 
includes recommendations and a strategic plan on a national 
levee safety program. The committee is a diverse group of 
professionals, mainly from State, local and regional 
governments, private sector, including some from the Federal 
Government that have worked diligently at representing national 
interests in levee safety.
    I would like to preface the committee's recommendations by 
recognizing a few comments up front. A, the need for a broader 
flood risk management approach in the Country; B, an 
opportunity to take the National Dam Safety Program and the 
emerging national levee safety program and integrate them, an 
opportunity for leveraging levee safety as a critical first 
step in the national infrastructure investment dialogue.
    The committee also recognizes that the levee systems 
commonly share the same space as water conveyance and critical 
ecosystems and habitats, and working with these interests is 
vital in effectively managing flood risk. The report for a 
national levee safety program embraces three main concepts: the 
need for new national leadership via a levee safety commission; 
the building of strong levee safety programs in and within each 
of the States; and the foundation of well-aligned Federal 
agency programs.
    In all, there are 20 specific recommendations in the 
report. In the interest of time, I would like to highlight just 
a few: Establish a National Levee Safety Program that would 
oversee an inventory and inspection of all levees; develop 
national levee safety standards and a comprehensive national 
public involvement and education awareness campaign to better 
communicate risk; forge collaborative studies for the 
environmental and safety issues; and establish a Levee Safety 
Grant Program to assist States and the local and regional 
governments.
    A second major point is to build and sustain strong levee 
safety programs in and within all States. Strong levee safety 
programs would initially be highly incentivized to qualifying 
States by providing technical assistance and training, critical 
data on levee inspections and inventory, Federal grants for 
startup and sustainment of State levee safety programs; and a 
levee rehabilitation improvement and flood mitigation fund 
targeted at communities with high risk levees.
    The last major point is to align Federal programs that are 
associated with leveed areas by providing incentives to 
communities to exceed the minimum program requirements and 
benefit from lower risk flood insurance rates to policyholders 
who live in leveed areas.
    Another aspect of alignment is to require mandatory risk-
based flood insurance.
    So a national levee safety program is not just a cost. It 
may be a long-term investment in public safety and economic 
prosperity. With the growing development and consequences in 
almost all areas behind levees, the benefits of a strong levee 
safety program are only going to increase over time. So not 
only does the concept of levee safety fit within the national 
infrastructure needs by protecting bridges and roads, but levee 
safety is also very much a State and local issue as levees 
protect so much local infrastructure such as homes, local 
businesses, schools, water and sewer treatment plants from 
frequent flooding.
    So we view the report as a beginning, not an end, to 
addressing the issue of levee safety, and we look forward to 
working with you and the other stakeholders while the 
Administration conducts its policy review.
    In the spirit of a good beginning, the committee will seek 
additional stakeholder and agency input through a series of 
national and regional listening sessions that are beyond the 
original accelerated pace of the report, but are an important 
part of moving forward with a national levee safety program.
    This concludes my statement, Madam Chair. I appreciate the 
opportunity to testify today on the ongoing efforts of the 
National Levee Safety program. I would be pleased to answer any 
questions you may have.
    Ms. Johnson. Thank you very much.
    Mr. Larson?
    Mr. Larson. Thank you, Madam Chair and the Committee.
    ASFPM is grateful to this Committee in fact for its 
leadership in exploring what we consider to be a very important 
issue in the Nation's economic and sustainable future.
    ASFPM believes there are a few issues that contribute to 
our national levee problems. I will just briefly mention some 
of those. You have already seen them in the testimony.
    First of all, we think communities and States erroneously 
think that flooding is a Federal problem, and it is not. We 
don't really know how many miles of levees there are and their 
condition. Current FEMA and Corps policies do not work 
together. In fact, they have increased our levee risk over the 
years. We have lost huge amounts to the Nation's natural 
functions and resource because levees typically are on the edge 
of the river or our estuaries. Risks behind levees are 
increasing, as we have talked about and residual risk is not 
clearly understood.
    I put up on the PowerPoint chart that I would like to show 
you and talk about just briefly. What this shows, actually 
General O'Reilly from the Corps of Engineers helped develop 
this chart. It his concept. What we are seeing on the left side 
of the chart, if you start out with all flood risk that you are 
facing, there are a number of measures that you can take to buy 
down that risk. As you can see, it talks about doing zoning, 
building codes, outreach, evacuation planning, flood insurance 
and levees.
    Flood insurance in fact does reduce that individual risk 
because it reduces consequences. When I talk about risk, I am 
not just talking about the probability of flooding. Risk is the 
probability times the consequences. So the more you have of 
consequences, the bigger your risk.
    Some of the best long-term solutions we like to advocate 
for reducing flood risk include avoiding flood risk areas, 
especially deep floodplains and coastal storm surge areas. 
Secondly, to use non-structural approaches because they have 
smaller long-term costs. Third, if we use levees at all, set 
back those levees so that we protect some of those functions 
and we decrease the pressure on the levees. And if we are going 
to put Federal dollars in, we ought to be talking 500-year 
levees.
    Why hasn't this happened in the Nation? Let's talk about 
the two agencies I mentioned. FEMA has a policy, and Mr. 
Boozman talked about this, it says 100-year levee, now behind 
it you do nothing, no flood insurance, no regulations, no 
nothing. So even if the Corps had a positive benefit cost 
ratio, and typically the community opts for the low one because 
that buys them what they want. Ironically, we would fare better 
if the whole Nation had 99-year levees because then we would 
have essentially the same level of protection, but we would 
also have some of the other measures of insurance, regulations 
and some of the other things that would help give us backstop.
    From the Corps' standpoint, this is where we get into what 
is currently a disincentive for good behavior. We use Federal 
taxpayer money to build 65 percent to build the levee. When the 
levee fails or over-tops, we use the taxpayers' money to either 
rebuild it with 80 percent or 100 percent Federal money. So I 
am the mayor of a local town. You are going to help me build 
this levee, and I am going to have this development behind the 
levee. I am getting all the tax benefits from that increased 
development, but when the levee over-tops and fails and when we 
have a disaster, you, the Federal taxpayer, are going to come 
in an bail me out. Gee, I wonder why I take those steps?
    With those kind of policies in place, we are not going to 
solve this problem.
    So before we can fix the levee problem, we need to change 
some other things, too, like some of these programs I just 
talked about: mandatory insurance behind levees; change the 
100-year standard in FEMA; the Disaster Relief Act; the Corps' 
Public Law 84-99 Program.
    From the standpoint of the committee report, we support a 
number of the recommendations that Eric just talked about. But 
also we would say on the commission that establishing a 
commission with a broader view of flood risk, and then with 
this levee sub##group that can proceed on some of these actions 
that Eric talked about would make more sense. If we only deal 
with levees, and not with the broader issue of flood risk, we 
fear that we are going to be fiddling while Rome burns here.
    Eric talked about the incentive, the strong State programs, 
and those are all good things. These aren't new ideas you are 
hearing from us. These have been in every report you can see 
about levees since 1982.
    So standing up these next steps, Congress may want to 
consider standing up a broad flood risk committee, having a 
levee sub-group that proceeds on some of these items we talked 
about, of State capability incentives, engineering standards 
and the rest.
    So that if we can move on those areas, and at the same time 
try to decrease those incentives that create bad behavior, I 
think we are going to make some progress.
    I thank the Committee again for the opportunity to testify.
    Ms. Johnson. Thank you very much.
    Mr. Fitzgerald?
    Mr. Fitzgerald. Thank you, Madam Chairwoman.
    NAFSMA represents 100 members, mostly large urban agencies, 
and about 76 million citizens. Our members are on the frontline 
every day reducing loss of life and property damage from 
floods. NAFSMA members also deal directly with increased 
populations in helping to guide design of low flood risk 
neighborhoods, many of which will be built behind existing or 
future levees.
    I am going to start with four general observations on the 
recommendations.
    First, Mr. Halpin, I applaud you and the entire Committee 
who represented the breadth and depth of levee experience in 
the United States from all levels of government and the private 
sector. It is especially important that Bob Turner from St. 
Bernard Parish is on the committee. He experienced first-hand 
the consequences of major flooding behind a levee system. Their 
parish was devastated by Hurricane Katrina, with only five 
buildings not flooded.
    Second, while this report focuses on levees, many of its 
ideas, approaches and recommendations are applicable to the 
broader issue of flood risk management. As stated in the 
report, improving levee safety will be most effective if it is 
conducted within the context of a national flood risk 
management program.
    And third, levee safety is a shared responsibility. 
Responsibilities lie at all levels of government, and with 
persons whose lives and property are located behind levees.
    And fourth, while everyone may not agree with all of the 
recommendations, it is paramount that implementation of the 
ones that we can agree on begin as soon as possible.
    Now, I would like to talk about the recommendations. We 
divided them into three groups: those that need to be 
implemented as soon as possible; those that will take longer 
and should be implemented next; and the ones that need further 
study.
    Thirteen of the recommendations should be implemented as 
soon as possible. They address expanding the levee inventory, 
adopting a hazard classification system and national levee 
safety standard, providing technical guidance, removing 
liability barriers, and delegating responsibilities to the 
States, augmenting existing FEMA programs, and funding.
    One in this group is particularly important to the NAFSMA 
members who are currently trying to maintain the integrity of 
their existing levees. Conflicting regulatory and environmental 
agencies views are resulting in long delays or inability to 
perform the needed infrastructure maintenance, such as removing 
trees. NAFSMA concurs with the Levee Safety Committee 
recommendation that acceptable operation and maintenance 
practices need to be developed in coordination with 
environmental agencies so lives and property can be protected, 
and significant environmental resources are not impacted.
    There are five in the implement next group. They include 
developing tolerable risk guidelines, public education and 
awareness, levee safety training, research and development, and 
exploring incentives and disincentives.
    And finally, there are only two that we identified as 
needing further study. The first is the establishment of a 
National Levee Safety Commission. It would focus exclusively on 
levees, unlike the current situation where levee issues are 
spread between the Corps and FEMA. It is probably the smart 
thing to do to develop a strong national program. However, some 
NAFSMA members are skeptical of another layer of government.
    The other one is the mandatory purchase of flood insurance 
in leveed areas. Although NAFSMA agrees that participation in 
the National Flood Insurance Program helps reduce the impact of 
financial damages on individuals and businesses and raise 
awareness in the participating communities, it does not change 
their flood risk.
    We also understand that actuarial rates would be applied. 
We are interested in seeing how the formulas would be developed 
where levees can fail for various reasons and consequences can 
vary greatly. NASFMA believes that a thorough evaluation of the 
long-term impact that the mandatory purchase requirement would 
have on local communities is needed. NAFSMA agrees with the 
House approach in the bill approved last congressional session 
calling for a study of these impacts to be carried out before 
Congress mandates such a change.
    In closing, NAFSMA recommends continuing to utilize the 
experts and practitioners on a levee safety committee to ensure 
effective and timely implementation of the National Levee 
Safety Program, to reduce flood risk, loss of life, property 
damage, and recovery cost.
    Thank you for giving us this opportunity to make this 
statement.
    Ms. Johnson. Thank you very much.
    Mr. Conrad?
    Mr. Conrad. Thank you, Madam Chairwoman, Ranking Member 
Boozman and Members of the Subcommittee. The National Wildlife 
Federation greatly appreciates the opportunity to share our 
views on the recommendations of the National Levee Safety 
Program.
    We also want to compliment the prodigious work of the 
committee in assembling this report on a quite compressed time 
schedule. This is a very broad subject. The report provides 
many important insights as to conditions confronted by the 
Nation, States and communities faced with reliance on aging and 
in some cases poorly constructed levees. Yet we are concerned 
that the report fails in some fundamental ways to adequately 
approach current and future risks associated with levees.
    Madam Chairwoman, the report traces a history of an aging, 
constantly deteriorating, and often poorly designed, 
constructed and maintained stock of levees in environments that 
are in many cases facing growing flood risks, which has led us 
to the point of rapidly increasing risks and costs of flood-
related damages. It begins to frame out how a series of often 
poorly coordinated Federal programs, combined with quite 
serious public misperceptions about risks involved, have driven 
to a dangerous over-reliance on levees, too often to the 
exclusion of other critical hazard mitigation approaches.
    When combined with the growing risks associated with global 
warming and climate change, changes in snow pack and runoff, 
more frequent and more severe storms, increasing sea levels and 
erosion along coasts and population increases, and major 
ongoing changes in intensifying land uses and urbanization that 
are increasing flood risks, it is clear that the risks and 
costs of flooding to many communities and society as a whole 
are rising alarmingly.
    Madam Chairwoman, a the broadest level, our concerns with 
the proposal fall into three categories. The scope of levee 
safety in the proposal is too narrowly defined to assure flood 
risk reduction over the long term. Protection and restoration 
of the environment and implications of climate change, sea 
level risk, and changes in watersheds are given too little 
recognition.
    And finally, too great an emphasis is placed on the Federal 
Government to resolve problems that should properly be led by 
State and local entities.
    As the Federation reads it, the committee has principally 
defined the focus of levee safety to assessing and managing the 
condition of the levees themselves, rather than placing them in 
the full context of the floodplains in which they are located. 
We believe it is unwise to approach the Nation's levees as 
divorced from what is happening in their floodplains. The 
Federation believes that absent viewing levees in their full 
context, the narrow focus may lead to compounding costs and 
increasing risks, rather than the opposite.
    Another extremely critical concern is failure of the 
committee's proposal to clearly include among responsibilities 
of the commission and States to identify and consider 
environmental factors in developing broad levee safety plans. 
Congress gave important new direction in WRDA 2007 in a new 
national water resources policy that added critical new 
criteria and considerations such as focusing on sustainable 
economic development, seeking to avoid the unwise use of 
floodplains and flood-prone areas, and protecting and restoring 
functions of natural systems. Yet these are essentially 
unreflected in the committee's proposed levee safety program.
    Without question, enormous ecological damage has been 
caused by excessive reliance on levees as primary, and 
sometimes only flood damage control strategies in many areas. 
In some regions, millions of acres of riparian wetlands, 
riparian lands and floodplain lands have been cut off, drained 
and divorced by levees from their natural connection with 
rivers and estuaries. As a result, we are now witnessing not 
only enormous adverse environmental effects, but also growing 
flood risks and costs from the losses of natural flood control 
systems, and the program needs to be revised to address that.
    We are concerned that the effectiveness of the Levee Safety 
Commission or a key agency assigned such leadership would be 
limited without the establishment of an overall strengthened 
and coordinated Federal approach to water resources that should 
be built on regional and watershed concepts. The committee 
recommended this, but offered no basic proposal to address it.
    There is a strong question whether the Levee Safety 
Commission or individual Federal agency could cause the called-
for substantial alignments of Federal flood hazard mitigation 
and environmental programs sufficient to serve as a major 
motivator for States to develop strong levee safety programs.
    The Federation and a number of other members of the 
National Levee Safety Committee Review Team made strong 
recommendations that revitalization of a Cabinet level U.S. 
Water Resources Council could be the best means to help focus 
the resources of the numerous Federal water-related programs to 
convince States to actively engage not only in levee safety, 
but also in a desperately needed effort to reduce flood risks 
through a full range of tools and risk reduction means across 
the Nation.
    Finally, we want to say we are greatly concerned that the 
committee has recommended the Federal Government should 
essentially presume responsibility for much of rehabilitation 
costs for urban levees by flatly recommending a 65 percent 
Federal/35 percent non-Federal cost share. We believe it is 
entirely premature to make such a recommendation. At this 
stage, we do not know what the total costs may be and we have 
not fully explored the range of cost share and financing 
options that may be available.
    Again, we greatly appreciate the opportunity to present the 
views of the National Wildlife Federation regarding the 
recommendations of the National Levee Safety Committee. We 
believe that the committee, however, has fallen short in a 
number of key areas which if not addressed would greatly hamper 
the effectiveness of moving forward with levee safety.
    Thank you, and I would be happy to respond to any 
questions.
    Ms. Johnson. Thank you very much.
    Dr. Leslie Harder?
    Mr. Harder. Chairwoman Johnson, Ranking Member Boozman and 
Members of the Subcommittee, I very much appreciate the 
opportunity to testify before you today about the importance of 
the National Levee Safety Program.
    My name is Leslie Harder, and I currently serve as the 
Senior Water Resource Technical Advisor for HDR, Incorporated, 
a national employee-owned architectural engineering consulting 
firm.
    I am also an active member of the American Council of 
Engineering Companies, ACEC, whose 6,000 member firms employ 
more than 500,000 engineering professionals across the Nation. 
And I am one of the members of the National Committee on Levee 
Safety whose recommendations you are now considering.
    In short, as the Chair and Ranking Member have very well 
summarized, we are at a critical juncture in our Nation's 
history. The risk to people and infrastructure is growing at an 
alarming rate as a result of more than 100 years of neglect to 
our levee systems.
    Now, I have a little handout that I made, hopefully you 
have it up there, to emphasize certain points. If I could turn 
to the second page, on the second page there is a photograph of 
a dredge taken about 100 years ago constructing one of the 
levee systems in California, which actually is part of the 
Federal flood control system today. This is the technology and 
the techniques that actually constructed many of the levees 
that now currently protect us across the Nation. And even 
though this may be 100 years old, even the more recent levee 
construction a few decades ago are not a lot better. They are 
basically long piles of loose dirt.
    Well, what do we know about these long piles of loose dirt? 
So on the next page, we do recognize they are integral to our 
communities. They are critical for the protection of people, 
property and other infrastructure. Now, the Chair and the 
Ranking Member did a great job of summarizing what we don't 
know about all these levees, the over 100,000 miles that we 
don't know exactly where they are at, their unknown integrity. 
We do know one thing: they are aging and they are 
deteriorating.
    We also know that there are no national standards or 
approaches, and there are liability issues. And these liability 
issues are burdening our current flood risk reduction efforts.
    On the next page are the 20 recommendations that the 
committee put together. On behalf of ACEC, the engineering 
community supports all of these recommendations. They are all 
important. Now, the ones in red I have chosen to highlight 
today in the following pages.
    So the first of these to highlight is the need to develop a 
common set of levee standards. We do not have common standards 
for criteria today. Different Federal agencies use different 
standards. The States use different ones. It will be necessary 
to base our future investments and priorities using common 
standards and common language. So the Committee has recommended 
the development of interim guidelines and eventually over a 
five-year period, a national levee safety code.
    On the next page is a recommendation for developing 
tolerable risk guidelines. These are basically the guidelines 
for target levels of protection of risk for different 
communities. Not every community needs the same level of 
protection. A small town in California does not need the same 
level of protection that New Orleans does, for instance.
    On the next page is mandatory risk-based flood insurance. I 
probably can't say enough how much this is needed. There are so 
many reasons for this. First of all, it is probably the fastest 
way to speed financial assistance to flood victims. It will 
limit financial damages to public agencies and the taxpayers. 
It will improve understanding of flood risks and the need to 
take individual responsibility. Risk-based premiums will 
motivate the public to improve flood protection. And regardless 
of the level of protection any community has, everyone who 
lives behind a levee at some point will have a fair amount of 
risk.
    Next page is design and delegate State levee safety 
programs. The committee recommended such programs. It is 
clearly an intent of Congress to have them. States are uniquely 
positioned to oversee and coordinate such activities. And we 
believe that the primary implementation of a national program 
for non-Federal levees will be through State programs.
    On the next page, national levee rehabilitation and 
improvement mitigation fund. Most of our recommendations are 
associated with the basic due diligence of managing critical 
infrastructure. But after we begin looking at our levees, we 
are going to find lots of deficiencies and they will be 
pervasive. And so we need a fund to rehabilitate them, and this 
is what is intended as a cost shared grant program. Now, we are 
always concerned about costs, but if we don't do something like 
this, our inaction will be that we as a Nation will be paying a 
lot more later.
    On the next page is the recommendation to replace the term 
``certification'' as it is used with FEMA's National Flood 
Insurance Program. If we replace it with something like 
``compliance determination'' or NFIP determination, it would 
avoid the misperception by policy makers, the general public 
and liability insurers that this is a warranty, which it is 
not.
    On the next page, addressing the liability issue. When 
Congress originally tasked the Corps of Engineers to begin 
constructing flood control projects, it recognized that it 
could not afford to build these projects and also be liable for 
them. So Federal immunity against liability was built into the 
process. And today, that Federal immunity is being challenged. 
But State agencies, local agencies and the private firms that 
serve them do not have any such protection at all. And as a 
result, both in the private sector and public sector, 
engineering organizations are reluctant or unable to provide 
engineering services because of the liability.
    And States and local agencies are reluctant or even 
refusing to sponsor new flood control projects for fear of 
acquiring new liability, which they cannot afford. The National 
Levee Safety Program cannot achieve success without resolving 
this issue.
    And then finally, we certainly endorse the need for a 
public involvement education and awareness campaign.
    In conclusion, on behalf of ACEC and the Nation's 
engineering industry, I want to thank the Subcommittee once 
again for focusing attention on this important issue and for 
the opportunity to testify before it. We strongly urge you and 
the total Congress to take up legislation to create a National 
Levee Safety Program as soon as possible.
    And I, too, would be happy to answer any questions.
    Ms. Johnson. Thank you very much.
    Mr. Haney?
    Mr. Haney. Chairwoman Johnson, Ranking Member Boozman, 
Members of the House Subcommittee on Water Resources and 
Environment, thank you for the opportunity to present this 
testimony.
    I am Andy Haney. I am the Public Works Director for the 
City of Ottawa, Kansas. Ottawa has a population of 
approximately 13,000 residents. It is protected on both banks 
of the Marais des Cygnes River by levees totaling approximately 
4.6 miles in length. This levee system was constructed by the 
United States Army Corps of Engineers. Recently, I represented 
the American Public Works Association as a member of the review 
team for the National Committee on Levee Safety.
    Flood control systems, which include levees, are among the 
infrastructure that APWA members plan, design, build, operate 
and maintain. I submit this statement today on behalf of the 
more than 29,000 public works professionals who are members of 
the APWA.
    The recent recommendation to Congress by the National 
Committee on Levee Safety is to establish a National Levee 
Safety Program and to require mandatory risk-based flood 
insurance in leveed areas. The economic impact of these 
recommendations for the Federal Government has been under 
review by the Office of Management and Budget, but the economic 
impact on local governments and on our citizen taxpayers may 
not be receiving the attention that is necessary and warranted.
    While some issues brought forward by the public works 
community were addressed by the National Committee on Levee 
Safety, a significant portion of our feedback seems to have 
been overridden by other interests.
    APWA would like to offer the following recommendations 
which we believe would greatly improve the creation and 
implementation of the National Levee Safety Program.
    Initially, place a moratorium on the schedule relating to 
provisional accreditation letters now being taken on levees 
that are affected. This would provide for a reasonable period 
of time for elected and appointed officials nationwide to 
discuss this issue in depth with appropriate Federal agencies, 
their citizens, local businesses, and other stakeholders before 
initiating efforts towards levee compliance determination.
    Additionally, this would allow a more thorough 
understanding of the needs of the Federal Government to 
institute the policy change and for local governments to assess 
and address the impacts that may result.
    Next, publicize the anticipated cost to property owners for 
insuring properties against flood damage. Include information 
related to what cost reduction for that coverage may result if 
a property owner is, ``protected by a compliant levee.''
    Next, we suggested to the National Committee on Levee 
Safety that the administration of the National Levee Safety 
Program should be retained by the U.S. Army Corps of Engineers. 
The Corps could promulgate rules related to when and if a 
program could or should be delegated below the Federal level 
based on reasonable criteria. The Corps should be augmented 
with the appropriate budget, staff and equipment to accomplish 
this as a routine function.
    To supplement the effort, the Corps could retain 
consultants to complete assessments and other work throughout 
the districts. We believe the results would be far more 
standardized and significantly reduce overall costs than if the 
project is undertaken by individual communities.
    Next, and significant, is to modify the threshold of lives 
at risk as a determinant of Federal financial aid availability. 
The focus on human safety is the highest priority stated in the 
report. We agree. And the report indicates the emphasis should 
be placed where there is a risk of 10,000 lives if a levee 
fails. That threshold of danger to human lives will likely 
exclude smaller communities with respect to receiving any 
Federal funding to improve levees. Even the larger cities may 
have difficulty attaining that 10,000 lives threshold.
    However, inundation of the levee-protected area of our 
town, as just one example, will possibly affect that number of 
jobs due to the business center being within the levee-
protected area. The economic loss could become devastating, and 
there should be some means of incorporating that economic loss 
in the formula.
    We also think that other associations should be brought in 
that have an interest, for instance, the National League of 
Cities, the National Association of Counties, and U.S. 
Conference of Mayors.
    Our levee system since it was built has been locally, not 
federally, funded. We have paid for all of the maintenance and 
we have maintained it religiously. As a member of this review 
committee, I have determined that not everybody has done that. 
But there needs to be some measure of that taken, and I think 
we need to take more time.
    Chairwoman Johnson, Ranking Member Boozman and Members of 
the House Subcommittee, thank you for conducting the hearing 
and inviting us to present our concerns and our recommendations 
for the public works community. APWA stands ready to be a 
resource as this goes on.
    Ms. Johnson. Thank you very much.
    I would like to ask Mr. Halpin a couple of questions, then 
I will move it on to Mr. Boozman and some of the other Members.
    Mr. Halpin, in your testimony you state that this report 
will advise the Administration in its official policy review. 
Who is participating in this review? And has the policy review 
begun?
    Mr. Halpin. Yes, Madam Chair. The Office of Management and 
Budget is conducting the clearance review of this and 
coordinating with other Federal agencies. That started in 
February and will continue, even though the report has been 
forwarded by the Army to Congress. They expect to finish that 
in the fall.
    Ms. Johnson. This was all Federal agencies involved in the 
floodplain or management development?
    Mr. Halpin. Ma'am, I am not privy to all the agencies that 
have been coordinated with.
    Ms. Johnson. OK. Thank you.
    Mr. Boozman?
    Mr. Boozman. Thank you, Madam Chair.
    Mr. Fitzgerald, what are your concerns about the 
recommendation for expanding the National Flood Insurance 
Program to require property owners and businesses in levee 
areas to buy the insurance? Is the insurance, if you can help 
me a little bit, is it the same if you have a 100-year levee 
versus a 500-year levee? How does that work?
    Mr. Fitzgerald. I think that is one of the unknowns is how 
would that work. There are a lot of questions about how those 
rates would be determined. In addition, you know, FEMA is in 
the flood insurance business and I think that has been their 
primary focus. With levees, you are going to get into other 
kinds of risk having to do with the structural integrity of the 
levee, consequences, the number of people behind it. There are 
more things involved in determining those rates and how that 
would be determined. So we feel like we need to take a look at 
that and get an idea of what that would do in those areas.
    Also, there may be some areas that are at just as high of a 
risk than behind levees within our floodplains. And so there 
could be a consideration of looking at where are the highest 
risk in communities, not just behind leveed areas.
    Mr. Boozman. Right. Very good.
    Let me ask this of the panel. At the October 20th, 2005 
Subcommittee hearing, the former head of the Dutch agency that 
builds flood control projects told the Subcommittee that in The 
Netherlands, the government made a political decision to 
provide a certain level of flood protection, and then directed 
the engineers to design projects to meet that level of 
protection.
    In the U.S., we instead ask the engineers to decide what is 
technically feasible, economically justified, and 
environmentally protective, and then we authorize the levels of 
protection to meet these criteria.
    Can you contrast? Can you comment on the Dutch system 
versus our system? Whoever wants to jump out.
    Mr. Halpin. Sir, I will take a shot at that.
    One big difference between the Dutch system and the U.S. 
system is the majority of their country is in a very flood 
risk-prone area on the North Sea below sea level. It would be 
like having our Country look like New Orleans. So you would 
have to be careful about legislating a level of protection 
based on a Country that is much larger and much more diverse 
than The Netherlands.
    That being said, there is something to be said for the 
commitment of a nation to establish a level of flood protection 
in legislation that is essentially around an extreme event.
    Mr. Boozman. But that really points out too the difficulty 
of kind of a one size fits all in our Country.
    Mr. Larson, only 10 States maintain a levee inventory and 
only 23 States have an agency with levee safety responsibility. 
Why are the States unwilling or unable to address the public 
safety risks associated with the levees?
    Mr. Larson. I think you will see that a number of States 
used to do more in both levee and dam safety. I used to run a 
dam safety and levee safety program and a floodplain management 
program in a State myself.
    As I pointed out earlier, we are seeing this evolution of 
people thinking the Federal Government is taking over floods 
and flood damages, and we are going to solve the problem at a 
Federal level. As a result, as governors and State legislators, 
come time for them to put money into their dam safety and levee 
safety programs, they are saying, well, this is a Federal 
problem; this is one thing we can cut because the Federal 
Government is taking care of it.
    I think that is leading us in the wrong direction, which is 
why the incentive scenario is to turn it around so that we 
start to reward those States that do a better job. The reality 
is they are going to have to be at the State level. The 
solutions to this really aren't engineering. We know how to 
engineer a levee. We always did. We always do. But the reality 
is what is causing our flood risks to increase is the land use 
and the other uses associated with levees. And land use is 
really in our Constitution only the purview of the States, not 
the Federal Government. So we have to get the States involved 
in this if we want to solve this problem in the long run.
    Mr. Boozman. I am done, Madam Chair, but would you like to 
comment, Mr. Conrad? You were nodding.
    Mr. Conrad. Yes, I was nodding. I think part of the point 
that I was trying to make in our testimony and in my summary is 
that risk is building up because there is an awful lot of 
perception that, oh, the Federal Government will somehow take 
care of me here, either with levees and then bigger levees and 
then bigger levees, or disaster assistance and insurance that I 
can purchase very cheaply even if the risks are very high.
    So I think that is really a fundamental problem that we 
have in this area. We have seen a huge amount of additional 
development over the last several decades in floodplains in 
rather dangerous locations. We are beginning to kind of catch 
up with that. We really need to stay on top of that. We need to 
do these inventories. We need to develop plans, and we need to 
engage the public in thinking through how to manage this risk.
    But fundamentally, we need much better floodplain 
management, and we need to do that with Federal incentives and 
disincentives, and work with the States and local governments 
to make that happen.
    Mr. Boozman. Thank you, Madam Chair.
    Ms. Johnson. Thank you.
    Mr. Hare?
    Mr. Hare. Thank you, Madam Chair.
    My district covers West Central Illinois, and I go almost 
from the Wisconsin border with the Mississippi River down 
almost to St. Louis. So a number of levees and levee systems, 
and I have seen a number of them, particularly last year, fail. 
And you know, there is an Upper Mississippi River comprehensive 
plan that has been signed off on by the governors, et cetera.
    Part of the problem of what the levee people are telling 
me, for example, the Sny Levee District, is saying that when 
the levee fails, they have to go back to their levee district 
because the Corps isn't, you know, the Corps can do only what 
the Corps can do, and then they have to come up with $1 million 
on their own. And these are people who have just been, you 
know, hit pretty hard and they have to try to figure out some 
way of being able to rebuild this levee system.
    I would like to know, you know, from the panel's 
perspective. I understand that the comprehensive plan, if we 
did it, would run about $6 billion to bring it up to those type 
of levels where, Senator Durbin and I were sandbagging, and he 
said, Phil, either 200 years has gone by awful fast or we just 
did this eight years ago.
    And so I am trying to see what maybe the panel's opinion is 
in terms of what do we do? Do we build these things back up? 
Because we are going to be spending a tremendous, and 
rightfully so, we are going to be spending a lot of money on 
flood relief for people who have been wiped out. I have the 
town of Gulf Port that is no longer a town. It is gone. You go 
down there and you look and it is basically been wiped out.
    And some farmers tell me, well, some people say that is 
only agriculture on the other side of that levee. When it 
breaches, that farmer whose got thousands of, hundreds of 
thousands of dollars invested in equipment, it is his whole 
life, and it puts him at risk.
    So I would like to know from maybe your perspective what do 
we need to do here? Because these levees are going to fail. 
Some of them are going to be decertified. People can't get 
insurance. I mean, you know, what do we need to do here? Do we 
need to rebuild these things? Or what are we going to do? 
Because this is an area, it is going to flood again. The 
question is not if, it is when. Are we going to have another 
200-year flood next year?
    So I would be very interested just maybe to get opinions 
from you folks in terms of what, you know, where do we go? What 
do we do? And anybody is welcome because I am sort of stuck 
here and I am looking for some help.
    Mr. Conrad. Well, I think the Country confronted this to 
some degree right after the Midwest flood, and we did something 
a little bit different. We, with my organization and I think 
some of the organizations represented here, recognized that 
there are a variety of solutions to deal with flood issues. And 
if we only focus on levees, that is not good, actually.
    After the Midwest flood, there were many, many buildings, 
10,000 buildings in the nine upper basin States that had been 
so badly damaged they were bought out using some Federal 
support, either 75 percent or 50 percent depending on which 
States you are talking about, support to do buy-outs and 
relocations. And buildings and people were relocated to higher 
ground.
    So I think that with cases like Sny Levee or others, I 
don't know all the details there, but we need to think on the 
long term where we are going with this. What are those long-
term costs likely to be if we continue to battle Mother Nature 
and lose? And so that is why a broader national flood risk 
management and environmental--these are environmental issues, 
too--about where we occupy and where we don't, what we are 
doing with the land. There are number of farming activities 
that can go on as long as there aren't residences there and an 
enormous amount of equipment, would still be productive.
    So there are a lot of things we can do like that. We just 
have to think of it on a much broader level than just levee or 
no levee kind of thing.
    Mr. Hare. Mr. Fitzgerald?
    Mr. Fitzgerald. Yes, and I am a civil engineer and I kind 
of think in more simple terms. I think it appears to me we are 
almost in a triage situation of, where is the next failure 
going to be? Where are we going to have the next flooding with 
the levees? So it seems like doing an evaluation and inventory 
of all the remaining levees that are not Federal would be a 
really good thing, so we can start anticipating where that next 
problem may be. Putting our resources toward those locations 
would be a good first step while we are working toward the 
longer term solutions like Mr. Conrad was saying.
    And we local sponsors or local entities also agree that 
flood risk management is really the bottom line. We need a 
really good flood risk management program, and levees are just 
part of that. A lot of us local areas, levees aren't our first 
choice. They are our last choice a lot of times. They are not 
our first choice. Some people think they are, but they aren't.
    But I think doing the inventory and putting our resource to 
those areas that need the help most would be a good first step.
    Mr. Hare. Thank you, Madam Chair.
    Ms. Johnson. Mr. Cao?
    Mr. Cao. Thank you, Madam Chair.
    I represent the City of New Orleans, and in the last three 
years we have had Katrina, which is a 500 level storm; Gustav, 
which is a 100 level storm. And during both of those storms, my 
house got flooded.
    My question to you is, the people of my district constantly 
live under the threat of hurricanes and floods. And I want to 
know what would be the most effective and cost-effective means 
of protecting the New Orleans metropolitan area and whether or 
not The Netherlands model would be a feasible option.
    Mr. Larson. I didn't hear the last part of your statement. 
Whether what would be feasible?
    Mr. Cao. The Netherlands model.
    Mr. Larson. Oh. Well, The Netherlands succeeded, well, I 
shouldn't say they succeeded. So far, they have held back the 
sea. What they gave up, however, was a fishery. So in the Gulf, 
you have to ask yourself, do we want to protect the City of New 
Orleans at the expense of our seafood, which as I understand 
provides, what, 30 percent of the seafood to the Nation out of 
the Gulf Coast area? So it is a balancing act. Like we always 
do, we are balancing one set of economics and one set of social 
issues and the cultures for another.
    Can we rebuild all of New Orleans and maintain it there, at 
the same time we are losing the wetlands that protect it? If we 
build a levee around the entire Gulf, what do we give up 
instead in order for that to be accomplished?
    These are not easy issues and there are of course huge cost 
issues. No easy answers, and while everybody is working through 
this problem right now, those solutions are probably going to 
be very long term.
    At the same time, we see the climate change and the sea 
level rise, all those of things that end--of course, you have 
the added disadvantage of subsidence in New Orleans. So you are 
really caught between the rock and the hard place to ask 
yourself, what parts of this city can we help be here 100 years 
from now? What are the solutions so that we can still maintain 
what has to be here? Those are very difficult choices that are 
not going to be very easy despite how much money we throw at 
them.
    Mr. Cao. So basically you are saying that there is no cost-
effective solution to protect the area?
    Mr. Larson. Maybe if you say, are we going to put a wall 
around it and protect it, is it going to be safe.
    Mr. Cao. No. I am asking you a question of whether or not, 
what would be the most cost-effective and the most feasible way 
to protect the area.
    Mr. Larson. Well, and that is what some of the studies are 
looking at now. And I think what we are hearing a lot of is at 
the same time we provide some levee protections for portions of 
the city, we need to also do those things that will help 
rebuild the wetlands in front of New Orleans so that we have 
more natural protection--those sorts of things. We are going to 
have to figure out what does that mean in the climate change, 
sea level rise scenario.
    So I haven't seen anybody showing me what the cost-
effective solution is yet, and there are a lot of studies going 
on on it. So I don't really know the answer, but it is not 
going to be easy.
    Mr. Cao. So I guess this is for the panel, in addressing 
the issue of the levees, obviously you have to work in 
conjunction with coastal restoration and other issues. And how 
are we going to come up with a plan that can comprehensively 
work in conjunction with the various issues in dealing with 
protection? Because it seems to me that we are just addressing 
one issue at a time, and that it might not provide the people 
with the adequate protection that they require, especially the 
many residents who live along the Gulf Coast.
    Mr. Conrad. Congressman, this has been a situation that has 
been developing for a long time nationally, that our water 
decisions are being done in a sort of stove-piped way. You are 
right. We are just kind of focusing on one thing at a time and 
not the whole system. I think that there are efforts now being 
made to see the Louisiana coast as a system, as very natural. 
It is a dynamic system. It was literally levees for navigation 
that wound up cutting off the sediments for the coastal 
Louisiana wetlands that have been the principal cause of damage 
to the wetlands, which are part of nature's protection for 
coastal Louisiana.
    So we need to look at this as a system, and I think we 
would recommend on a national level that we find some 
mechanisms to look at water resources among multi-departmental 
ways. I made the recommendation of a reestablishing a Water 
Resources Council that we used to have and we don't have now, 
that would bring the agencies together to talk about these 
things in that much broader frame.
    Mr. Cao. Yes, sir?
    Mr. Harder. I support a lot of what was just said. At the 
end of the day, as you well very much know, the Corps of 
Engineers is currently spending many billions of dollars to 
repair previous damage and also upgrade the system around New 
Orleans. In total, I believe it is probably on the order of $15 
billion just for this one city. And so that will certainly lead 
to improved flood protection compared to what it was prior to 
Katrina.
    And perhaps all these other endeavors associated with 
environmental restoration will also provide some long-term 
benefits as well and they ought to be pursued. But at the end 
of the day, the city will remain vulnerable to some extent, and 
there needs to be probably recognition of that and by the 
community, and that individuals are prepared for that either 
through emergency action plans, evacuations to reduce the 
potential for loss of life, purchase of flood insurance for 
speedy recovery when such a thing happens, and communication of 
risks so that people understand really the nature of the 
environment they live in.
    Mr. Cao. Thank you.
    Ms. Johnson. Thank you very much.
    Ms. Titus?
    Ms. Titus. Thank you, Madam Chairman.
    If you addressed this while I was out of the room, I 
apologize. But I would like to shift the geography a little bit 
to the west. As you know, levee breaches can happen even in the 
desert. About a year and a half ago, a 30-foot section of a 
levee broke in an irrigation canal out from Fernley, Nevada. 
That is 30 miles from Reno. Eight hundred houses were flooded; 
3,500 people had to be evacuated. It was kind of a disaster for 
the State to deal with.
    Now, I know that a lot of desert States are kind of like 
Nevada, but I haven't heard much about what is being done there 
to look at levees. There is an article that was in the New York 
Times on the 29th of March and it discusses how the United 
States Bureau of Reclamation owns that canal and they rented it 
out, or it is under contract with the Truckee-Carson Irrigation 
District. After the flood and after it was determined that the 
district had been defrauding the Federal Government, getting 
more water than they were entitled to, which they are now under 
indictment for, the Bureau shut down the canal for inspections 
and has broadened the review to include other systems it owns 
throughout the west.
    I would ask you if you know where that is today? If you 
know about the review of other systems in the west, starting 
with Mr. Halpin, and maybe Mr. Larson. And if you don't know 
about it, why not? And what can we do to have better 
cooperation among agencies as we move towards a national 
inventory and a plan, which you all seem to advocate? And maybe 
Mr. Conrad could add to that in light of what he has suggested 
about the Water Resources Council.
    Mr. Halpin. Ma'am, this is Eric Halpin. The legislation, 
called the National Levee Safety Act, specifically called us to 
look at this issue of what would be included as a levee and 
what wouldn't be. And it did guide us in the direction that 
structures along canals were something we need to look at. We 
did look at that closely. We understand the sensitivities of 
that issue, and the committee decided that structures along 
canals that might be used for irrigation or other purposes 
should be covered under the National Levee Safety Program.
    So the structures along canals share many of the common 
characteristics of levees, not all of them, so not all of the 
recommendations apply to such structures, but you will see them 
included under the definition. And until such time, because of 
the public safety mandate, until such time that other safety 
programs cover such structures, we believe they belong under 
the National Levee Safety Program.
    Ms. Titus. Do you know where that review is of the systems 
throughout the west? Is that moving forward? Or do you have any 
results yet?
    Mr. Halpin. We have no results. I am not familiar with the 
review you are talking about other than what we covered under 
the committee.
    Ms. Titus. Okay.
    Mr. Larson. I think the Bureau of Rec is undertaking that 
review, Madam. At the same time, I want to move to your other 
question because until they respond, we won't know what they 
found out in that review. But your question kind of is why 
don't the Federal agencies talk to each other. This is a common 
problem. It is not only Federal. You will find the same thing 
at State, even at larger local communities. As we see reduced 
budgets, one of the first things you cut out is the ability to 
talk to somebody else because you are worried about your own 
stovepipe.
    This is why we think that some flood risk group that is 
almost a Cabinet-level type of thing is necessary so that we do 
get the buy-in from agency to agency, because despite what Eric 
or the Corps of Engineers might want to do in this area, they 
need the cooperation of the Bureau of Rec, and if the Bureau of 
Rec says we are not going to do it, somehow Congress needs to 
say, yes, you are; we will all work together on this, and here 
is an oversight structure that will allow you do to that.
    That is why we think that is extremely important.
    Mr. Harder. I am Leslie Harder. Just to extend or add to 
Eric Halpin's testimony, the committee did agree with Congress 
that embankment structures along canals should be included as 
Congress intended as a definition of levee. There are important 
differences of how they are operated and maintained, but there 
is no other regulatory environment that is available at this 
point in time. And the extended inventory and database that the 
committee has recommended also would extend to include such 
structures, and it is part of our recommendation.
    Ms. Titus. OK. Thank you.
    Mr. Conrad. I think it has been said here. The National 
Wildlife Federation agrees that there is a need for a 
regulatory scheme to look at irrigation canals. It does seem to 
fit with this kind of framework. And I completely agree with 
what Larry Larson said about the need for an overarching 
communications system to be set up among agencies.
    Ms. Titus. Thank you, Madam Chairman.
    Ms. Johnson. Thank you very much.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Madam Chair.
    There are many questions. I will probably have to submit 
some in writing.
    But Mr. Halpin, the stability and protection of the 
California delta, you know, I am a California Representative, 
is crucial to maintaining the California water supply. And the 
Army Corps has focused its work on securing the levees for the 
safety of the population, especially in the floodplain area, 
which also needs to be secured to prevent seawater from mixing 
with the fresh water.
    But what are they doing to protect the Bay Delta and 
strengthen these important levees, given that some of them are 
private and some are Federal, for the safe drinking water and 
protection of the breadbasket, the farmland that is there?
    Mr. Halpin. Ma'am, we recognize that is a critically 
important area of the Country, for the whole Country, but some 
of the issues in the delta levees have to do with our 
authorities, where we have them and where we don't have them. 
So I think some of the non-Federal levees that you are talking 
about down in the delta are not ones we currently have 
authorities for. The State of California has one of the most 
robust levee safety programs of any State, so I think you are 
seeing some very positive actions there in regard to those 
levees.
    Mrs. Napolitano. Well, but given the State budget, I don't 
think that is going to be coming to fruition real soon. So do 
you have any suggestions?
    Mr. Halpin. I don't think you can see the Corps of 
Engineers activities change very much without a change in 
authorities.
    Mrs. Napolitano. Do you work in concert with your 
California counterpart?
    Mr. Halpin. Yes, we do.
    Mrs. Napolitano. Okay. I would love to have a kind of 
conversation with you because I am very interested in what 
their governance issues are going to be.
    To Mr. Harder, what would be your recommendations for 
retrofitting the Bay Delta, the levee which is really, well, it 
is critical.
    Mr. Harder. Thank you for the question. In my former life I 
used to be Deputy Director for the California Department of 
Water Resources.
    Mrs. Napolitano. I thought I recognized you.
    Mr. Harder. And was intimately involved with some of those 
issues. As you very much well know and have alluded to, over 
1,000 miles of levees in around the San Joaquin Delta are very 
vulnerable. Only a small portion of them are actually Federal 
levees. The vast majority are non-Federal.
    California's drinking supply, California's economy depends 
on those levees. And basically, most of California's drinking 
water goes through that delta. So those levees are not just for 
flood control. They are actually for California's economy and 
the Nation's economy. So they are critically important, as you 
have drawn attention to it.
    They are very vulnerable. They are very weak. They have 
failed probably 170 times over the last 100 years or so. And of 
course, they are very vulnerable to a future earthquake.
    The current operation of the delta and maintenance of those 
levees is not sustainable either for the environment or for 
water demands. And as you know, there is an effort underway to 
try and basically come up with a more sustainable system for 
both of them.
    Over time, probably they are going to have to be able to 
sustain only part of the delta in the future. And I think this 
points to not only a governance structure for the delta, but 
also the importance of a State program, a State levee safety 
program that takes into consideration not just, you know, 
inundation flood control, but all the other aspects as well, 
whether it is water supply or the environment.
    And that has been part of the recommendations by the 
National Committee on Levee Safety, is to develop strong State 
programs. Much of the work that needs to be done, while all of 
it is shared, a lot of it has to be done at the State level.
    Mrs. Napolitano. Is that in conjunction with the Governor's 
Task Force?
    Mr. Harder. Yes, and the Bay Delta Conservation Plan 
efforts and other efforts that are going on there.
    Mrs. Napolitano. Well, the sad part is that those levees, 
if they were to fail, it would contaminate a lot of the valley, 
which feeds quite a bit of the Nation with fruits, vegetables, 
et cetera. And so it is critical for us.
    Given the unpredictability of Mother Nature, as one of you 
stated just a minute ago, is that the 200, 500, 100-year flood, 
whatever, might happen tomorrow. Again, the flood insurance 
question is something that bothers me because when we went to 
Louisiana after Katrina and there were signs all over the 
insurance companies were negating claims to help some of the 
homeowners. Never mind the flood insurance, these are the 
actual residents of the affected homes.
    Is there anything being done to be able to ensure that they 
don't cherry-pick or that they do have insurance aside from 
flood insurance?
    Mr. Conrad. Well, pretty much the only game in town across 
the Nation for flood insurance is through FEMA's NFIP program. 
Very few insurers want to offer flood insurance and almost all 
that is sold is through the FEMA program.
    FEMA currently offers a variety of rates. They have a 
mandatory rate if you are mapped into the 100-year floodplain. 
You can also buy flood insurance if you are outside the mapped 
100-year floodplain and in that case you get a preferred rate 
which is about one quarter of what you would have to pay if you 
were mapped within the 100-year floodplain - called the Special 
Flood Hazard Area.
    So there is already a procedure in place through FEMA to 
have variable rates. And if we built on that and go forward so 
that everybody living behind the levee takes the 
responsibility, and purchases flood insurance, they will be 
better off in the long run. They will get speedier, faster 
financial assistance in case of a flood. It will relieve some 
of the taxpayer burden and it will better communicate risks.
    Mrs. Napolitano. Well, thank you.
    Madam Chair, I totally agree that we need to consider 
having a Water Resources Council so that the agencies can speak 
to each other--or Mr. Chair--and be able to come to some 
understanding of what is necessary and how the funding is going 
to have to be provided to ensure the protection of those areas.
    Thank you.
    Mr. Baird. [Presiding] I thank the gentlelady.
    I will recognize myself for five minutes.
    Thank you, gentlemen, for your testimony today. I am sorry 
my colleague from Louisiana is not here. The reason is that, as 
many of us voted for billions and billions of dollars for 
levees in New Orleans, I was chagrined when the Governor of 
Louisiana earlier this year took it upon himself to challenge 
the legitimacy of funding for volcano observatories. Well, if 
one lives in New Orleans, levees matter. They matter to my 
district. But we live below a volcano that has killed more than 
60 people, the only one that has done so in the continental 
U.S. ever. And so observatories matter to us.
    How much has been spent on levees in the New Orleans area? 
Does anybody have a sense of that?
    Mr. Halpin. Sir, I can't give you an up to date current 
total right now. We could get back to you with that exact 
answer. But the overall program for the Corps of Engineers in 
restoring the levees down there right now to their currently 
authorized level is about $15 billion.
    Mr. Baird. Fifteen billion, with a B?
    Mr. Halpin. Yes, sir.
    Mr. Baird. Let the record show that the disputed amount for 
volcano observatories is about $18 million, with an M, million 
versus $15 billion. And as important as those levees are to New 
Orleans, observatories are rather important to our area.
    When we build levees, the Corps constructs them, to what 
extent is the maintenance of the levee factors into future 
budgets? In other words, you know, we estimate the cost, but do 
we then say, okay, so we are now burdening either the Federals 
or the locals with some anticipated maintenance fee for the 
foreseeable future? How does that get sorted out?
    Mr. Halpin. Sir, the cost for maintenance and operation of 
the levees right now, since the Water Resources Development Act 
of 1986, said that was a local sponsor responsibility. So that 
is recognized in the development of the project and development 
of operations and maintenance and manual plant, but that is a 
responsibility of local governments.
    Mr. Baird. But the local governments tend to come to us, 
quite understandably, and say can you get an earmark in the 
next WRDA or the appropriations bill to repair our levees. Is 
that a fair assessment? I can tell you existentially and 
phenomenologically it is for me. What is it for you?
    Mr. Halpin. It varies quite a bit across the Country, sir.
    Mr. Baird. But it is not uncommon for local folks who maybe 
perhaps have the obligation to maintain levees to--yes?
    Mr. Haney. If I may, sir, I am one of those. And we have 
since the levee was built approximately in 1960 in our town, 
there hasn't been a Federal maintenance dollar spent, earmark 
or otherwise, on our levee.
    Mr. Baird. Good for you.
    [Laughter.]
    Mr. Haney. Not that we didn't ask.
    [Laughter.]
    Mr. Baird. Yes, please, Mr. Fitzgerald?
    Mr. Fitzgerald. Yes, I just wanted to say that the local 
sponsors in the NAFSMA organization understand their 
obligations. We all understand the obligations, and we do work 
with the Corps of Engineers when they are developing their 
economics analysis for levees and provide feedback on what some 
of those operation and maintenance costs are.
    But I think over time through the deterioration or aging of 
these levees, as was mentioned earlier, as we know sometimes 
the costs can outweigh what the locals can come up with 
sometimes. And so we come asking for help at the State or the 
Federal level. So I think that is just probably more systemic 
of the older systems, and not maybe the newer systems.
    Mr. Baird. Mr. Larson?
    Mr. Larson. I think what Steve has talked about in Kansas 
is that there are good levee districts and communities that 
take care of their levee. On the other hand, there are lots of 
them that don't. I think it is important that we all back up 
and say that building a levee to begin with was the community 
option. There are other options: relocate people out of the 
flood plain; elevate; the rest. But that community chose to 
have a levee, and committed when the Corps of Engineers built 
it that we will undertake the operation and maintenance.
    We are all seeing now when we do build the levees, we need 
to make sure that those obligations on the part of the local 
sponsor are a lot more, and maybe even bonded ahead of time, 
those sorts of things, so that we know that there is assurance 
that that operation and maintenance will occur, so that the 
Federal taxpayer is not once again asked to do the same thing 
over and over and over again.
    We talk in the flood insurance program about repetitive 
flood claims for structures. We also in the Nation have 
repetitive levee claims. We have levees that fail over and over 
and over, and the Federal taxpayer is rebuilding them. So it is 
important that we try to tighten that scenario so that those 
who make that option, choose that option have the opportunity 
to do what they said they would do.
    Mr. Baird. Well said. I would concur with that.
    Please, Dr. Harder?
    Mr. Harder. I would concur that most local agencies 
understand that when they support a Federal flood control 
project and accept it from the Federal Government, they have 
agreed that they will maintain it to Federal standards on their 
dollar. Many of these agreements go back decades, if not 50 
years, with the completion of various projects.
    The complexity of maintaining these levees has become more 
challenging with time. Many of these levees are deteriorating 
more. They have more than just routine maintenance that is 
needed. They have all sorts of deficiencies that have to be 
done.
    And also, and this is not a hit against my buddy here, but 
the Endangered Species Act has made complying with the 
requirements associated with those regulations a lot more 
challenging for a local government or a local maintaining 
organization, which sometimes is just like a handful of people. 
And as a result, one thing ends up giving. Either the 
environment ends up giving, or the maintenance ends up giving.
    This is a conversation we need to have in terms of what is 
the proper maintenance level. And then when we formulate future 
projects, is to better incorporate those things in what the 
actual maintenance is going to have to end up being like.
    Mr. Baird. A point well taken, Dr. Harder.
    I think one of the things we need to do is better provide 
that informed consent up front. Where it is very frustrating is 
the levee gets constructed. Once the levee is there, then 
houses and business property gets sold that is now protected by 
the levee. So people build there. And they build with some 
anticipation that somebody else has to then foot the cost of 
protecting the land that they bought in, knowing they bought in 
what would otherwise be a flood area. And to some extent, then 
boucing it back to Uncle Sam and saying, okay, now the Feds 
have to somehow pay for this, while the locals have benefitted, 
but have not incorporated that into their property tax, somehow 
needs to change, in my judgment.
    If the Feds are going to build a levee with the local 
sponsor assumption that it is their maintenance responsibility, 
then it is their maintenance responsibility and those who 
choose to build in that area protected by the levee ought to 
have some surcharge in some fashion, it seems to me, to cover 
that, if that is the terms of the agreement.
    If we want to change that, okay, but we shouldn't be 
building levees with a false assumption. I would hope in some 
way in the future we can--and that includes, by the way, the 
City of New Orleans, Louisiana, in my judgment. And if we want 
to change that rule, okay, but let's at least be honest about 
where that funding will come from and who is benefitting and 
who is paying for that cost.
    So Mr. Boozman, do you have any comments or questions?
    Mr. Boozman. No. Thank you, thank you very much, Mr. 
Chairman.
    Thanks to the panel. This has been a very interesting and I 
think a very informative day, and we appreciate your taking the 
time to be here. Thank you.
    Mr. Baird. I thank the panelists.
    And with that, the record will remain open for the 
customary two weeks for people to offer additional comments.
    With that, the hearing stands adjourned.
    [Whereupon, at 4:12 p.m. the Subcommittee was adjourned.]

<GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

                                    

</pre></body></html>
